Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 



COSTS CLAIMED BY JOHNS HOPKINS
BAYVIEW MEDICAL CENTER UNDER
 NATIONAL INSTITUTES OF HEALTH
       CONTRACT NUMBER
   HHSN292200900002C WERE . 

     GENERALLY ALLOWABLE 




  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.A ffairs@oig.hhs. gov.




                                                  Stephen Virbitsky
                                               Regional Inspector General

                                                     September 2013
                                                     A -03-12-03300
                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission ofthe Office offuspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations .

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the fuspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             OFFICE OF AUDIT SERVICES, REGION III
                                                               PUBLIC LEDGER BUILDING, SUITE    316
                                          SEP 13 2013             150 S . INDEPENDENCE MALL WEST
                                                                            PHILADELPHIA, P A 19106



Report Number: A-03-12-03300

Mr. Craig R. Brodian
Vice President, Human Resources
Johns Hopkins Bayview Medical Center
4940 Eastern A venue
Baltimore, MD 21224

Dear Mr. Brodian:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office oflnspector
General (OIG), final report entitled Costs Claimed by Johns Hopkins Bayview Medical Center
Under National Institutes ofHealth Contract Number HHSN292200900002C Were Generally
Allowable. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-12-03300 in all
correspondence.

                                             Sincerely,



                                             Stephen Virbitsky
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2- Mr. Craig R. Brodian

Direct Reply to HHS Action Official:

Lorraine M. Trexler, CPA, Director
Division of Financial Advisory Services
OAMP, OALM, OD
National Institutes ofHealth
6011 Executive Blvd. Room 549-C
Bethesda, Maryland 20892-7663
Trexlerl@od.nih.gov
                                             INTRODUCTION 


WHY WE DID THIS REVIEW 


The National Institutes of Health (NIH), National Institutes on Aging, Gerontology Research
Center, had concerns about the cost of utilities and steam heat under a utilities contract between
NIH and Johns Hopkins Bayview Medical Center (Bayview). Accordingly, NIH requested that
we conduct an audit ofthe contract, number HHSN292200900002C (contract).

OBJECTIVE

Our objective was to determine whether costs claimed for the contract were allowable in
accordance with Federal regulations and contract agreements.

BACKGROUND

Johns Hopkins Bayview Medical Center

Bayview is part of the Johns Hopkins Health System. NIH owns the Gerontology Research
Center building, which is located at the Bayview facility, and contracts with Bayview for
utilities. Bayview purchases electricity and water from local utility companies and provides
steam for heat from its central utilities plant.

NIH requested a Department of Health and Human Services, Division of Cost Allocation review
of the contract because NIH had concerns about the rising costs of water, electricity, and steam,
and about the indirect cost rate of9.3 percent under the contract. NIH subsequently requested
that we audit the direct and indirect costs charged to the contract.

HOW WE CONDUCTED THIS REVIEW

Our audit included costs of $8,607,181 claimed on vouchers between October 1, 2008, and March
31, 2012 (audit period). We excluded depreciation costs of $373,289 and related indirect costs
of$30,904 from our sampling population and reviewed those costs separately. We also excluded
items under $10. From the remaining expense items we reviewed a simple random sample of 41
items consisting of salaries, electricity, steam and water totaling $409,458.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.




National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300j                 I
                                                 FINDINGS 


Of$8,607,181 claimed by Bayview, $8,541,049 was allowable in accordance with applicable
Federal regulations and contract agreements. During our audit period, Bayview identified
unallowable depreciation and related indirect costs totaling $66,132 and refunded that amount to
NIH. Therefore, we have no recommendation.

                      Cost                                        Costs       Allowable
                                        Costs Claimed
                    Category                                    Questioned      Costs
               Salaries                       $87,771              $0            $87,771
               Fringe Benefits                  27,121               0            27,121
               Steam                        3,741,667                0         3,741,667
               Electricity                  3,193,873                0         3,193,873
               Water                          454,589                0           454,589
               Depreciation                   373,289            35,228         $338,061
               Indirect                       728,871            30,904          697,967
                       Total               $8,607,181           $66,132       $8,541,049

JOHNS HOPKINS BAYVIEW MEDICAL CENTER COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Bayview objected to our request for documentation
identifying the original valuation of the central utilities plant and stated that the Division of Cost
Allocation had approved the allocation of depreciation costs in 1994. However, Bayview
provided us with bond information relating to the funding of the central utilities plant's
construction costs. Bayview noted that it had identified and refunded $66,132 in unallowable
depreciation costs and unallowable indirect costs relating to the depreciation costs. Based on the
information provided, we modified our report and have no recommendation.

We included Bayview's comments in their entirety as Appendix B to this report.




National institutes ofHealth Utility Contract with Bayview (A-03-12-03300)                   2
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


Scope

The audit period included costs of$8,607,181 claimed on vouchers between October 1, 2008,
and March 31, 2012. We excluded 111 transactions related to $482 for individual items under
$10. Our audit objective did not require an understanding or assessment of the complete internal
structure of Bayview. We limited our internal control review to obtaining an understanding of
Bayview's accounting system as it relates to costs claimed on vouchers of the contract. We also
evaluated the opinions expressed by the independent auditor in Bayview's OMB Circular A-133
report for the year ended June 30, 2011.

We performed fieldwork at Johns Hopkins Health Systems offices in Baltimore, Maryland, from
April2012 through March 2013.

Methodology

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws and regulations pertaining to contracts and non-profit
        organizations;

    • 	 reviewed the contract between NIH and Bayview;

    • 	 interviewed Bayview and accounting department officials concerning the contract;

    • 	 reviewed a simple random sample of 41 items consisting of salaries, electricity, steam,
        and water totaling $409,458;

    • 	 separately reviewed depreciation costs of$373,289 and $30,904 of related indirect costs;

    • 	 reviewed Bayview's policies and procedures related to finance, personnel, and internal
        controls;

    • 	 reviewed audited financial statements;

    • 	 reviewed accounting records supporting costs claimed on the contract and source 

        documents for selected items; and 


    • 	 obtained the rate agreement for fringe benefits and indirect costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300)                3
                                APPENDIX B: BAYVIEW COMMENTS 


 4940 Eastern Avenue 

 Baltimore, MD 21224-2780 

 410-550.{)100 

 TIY 410-550-0316 


                                                                             JOHNS HOPKINS
                                                                               MEDICINE

                                                                                 JOHNS HOPKINS
                                                                             BAYVIEW MEDICAL CENTER



 August 29, 2013


 Report Number: A-03-12-03300

 Mr. Stephen Virbitsky 

 Regional Inspector General for Audit Services 

 Office of Audit Services, Region Ill 

 Public Ledger Building, Suite 316 

 Philadelphia, PA 19106 


 Dear Mr. Virbitsky,

 Enclosed is the Johns Hopkins Bayview Medical Center's (Bayview) response to the 

 Office of the Inspector General's (OIG) draft report dated June 3, 2013. As instructed in 

 your letter we have included a statement of concurrence or nonoccurrence with our 

 recommendations. We want to thank you and your team for allowing us an extension to 

 gather the necessary support for our responses. 


  If you have any questi9ns or comments about our response, please do not hesitate to 

  call me 41 0-550-0444, or contact John Heyl, Director of General Accounting, at 443­
  997-5720 or through his e-mail at jheyl1@jhmi.edu. 


  Sincerely,




  Craig Brodian 

  Vice President, Human Resources 


  Cc: 	 Michael W. Walsh 

        Michael Jones 

        Laura Callahan Mezan, Esq. 

        John Farenish, Esq. 



National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300)               4
     Johns Hopkins Bayview Medical Center's Response to Report Number: A-03-12-03300

 Introduction

          The Johns Hopkins Bayview Medical Center ("Johns Hopkins" or "Bayview")
 appreciates this opportunity to respond to Department of Health and Human Services ("HHS ")
 Office of Inspector General's ("OIG") draft audit report under National Institutes of Health
 ("NIH" or the "contract") Contract Number HHSN292200900002C. Based on the facts discussed
 below, Johns Hopkins Bayview respectfully requests that the OIG drop in its entirety the
                                                                                          1
 Recommendation in the Draft Audit Report that Bayview refund NIH $404,193 for central
 utility plant depreciation costs and related indirect costs charged to the contract that the OIG
 suggests should be refunded.

 Background

        Johns Hopkins Bayview Medical Center (JHBMC) is a member institution of the Johns
 Hopkins Health System and shares the same Service Excellence philosophies as Johns Hopkins
 Hospital. Johns Hopkins Hospital has been able to secure the #1 Hospital rating in U.S. News
 and World Re port for 21 years because of both its emphasis in recruiting exceptional facility and
 seamless integration of support services

         JHBMC supports the National Institute on Aging (NIA), Intramural Research Program
 (IRP), with water and utilities services. The NIA IRP is housed in the Gerontology Research
 Center (GRC), which is a federal-owned facility located on the campus of the JHBMC. The GRC
 was built without its own power plant and therefore it relies on the JHBMC facility to provide
 steam, electricity and water. The power plant is connected to the JHBMC hospital by an elevated
 and enclosed bridge. The NIA 's Gerontology Research Facility pays JHBMC for the cost of
 these utility services via contract. The contract is a mix of cost-reimbursable and firm-fixed
 pnce.

         In 1992, JHBMC developed and built a Central Utility Plant (CUP) to provide the
 necessary utility services for the GRC. The current utility infrastructure has been in place for
 decades when the medical center was owned and operated by the City of Baltimore. The actual
 procedure for charging out the cost of providing the utilities to the various users on the JHBMC
 campus has been consistent since the opening of the CUP. The process is based on an
 accumulation ofthe costs of producing utilities (steam, chilled water and water) divided by the
 total units produced for each utility yielding a cost per unit. This cost per unit is then charged to
 each user based upon meter readings. The exception to this process is depreciation which is
 charged at a flat , straight-line amount directly to the contract and overhead costs which is based
 on a negotiated overhead rate. The JHBMC has provided the GRC with excellent steam, electric
 and water service for nearly three decades.

 Discussion

              1. The CUP Provides Valuable Power to Support the NIH Mission

 1
  Bayview refunded $66,131.82 in depreciation charges to NIH in August 20 I 2 -the OIG recommended refund 

 amount does not consider this payment already made. Therefore, the remaining amount in question is $338,061. 


                                                     1

National Institutes ofHealth Utility Contract with Bayview (A-03-12 -03300)                              5
   Johns Hopkins Bayview Medical Center's Response to Report Number: A-03-12-03300

          The Central Utility Plant (CUP) provides the necessary utility services for the GRC
 without which the NIH IRP could not perform its invaluable mission in support of the NIA. The
 GRC building is supplied with 13,200 volt power from switches located in the JHBMC Central
 Utilities Plant. Water is supplied from the pumping arrangement in the JHBMC at a rate of 800
 gallons per minute with smaller pumps that serve as back up to the main pumps and are also
 available in the event of fire. Steam is generated by the Bayview Boiler Plant and is distributed
 saturated at 100 pound per square inch. Utility usage is charged based on the exact usage by
 virtue of utility meter readings.

          In December 1962, five acres of land for a Gerontology Research Center were donated by
 the City ofBaltimore. On June 15, 1968, the four-story $7.5 million Gerontology Research
 Center building, located at and operated in cooperation with Baltimore City Hospitals, was
 officially opened. In 2006, a new biomedical research facility opened on the Johns Hopkins
 Bayview Medical Center campus to house the National Institutes on Aging and Drug Abuse.

         NIH's Biomedical Research Center at Bayview houses scientists and support staff
 working on biomedical intramural research programs for the NIH's National Institute on Drug
 Abuse and National Institute on Aging. The 573,000 square-foot facility provides state-of-the-art
 laboratory, vivarium, clinical, library and office space. Research is conducted in several sites;
 the Office of the Scientific Director and administrative and research services are located at the
 Biomedical Research Center and most of the laboratories are based at the Biomedical Research
 Center on the Johns Hopkins Bayview Campus in Baltimore, Maryland.

        The Central Utility Plant (CUP) provides all the necessary utility services for the GRC
 without which the NIH IRP could not perform its mission in support of the NIA. For nearly three
 decades the CUP has provided these invaluable services to the NIA.

             2.    The GRC Benefits from the Depreciation Allocation

         The period under audit by the OIG is October 1, 2008 through March 31, 2012.
 Extensive review of billing allocation methodologies and line items billed took place over a
 fifteen month time period. No inconsistencies or problems with the billing practices were
 discovered during this process. One finding relating to the depreciation charged to the contract
 was issued in the draft audit report.

         Since 1992, the assets for the Central Utility Plant (CUP) at JHBMC were recorded in the
 fixed asset system as follows:

                  Building Component                         $ 8,909,800.24   30 year life
                  Fixed Equipment Component                  $ 7,081,419.33   20 year life
                  Other Equipment Component                  $ 198,957.02     15 year life
                                                             $16,190,176.59

        Understanding the need to grow campus operations and add new patient care facilities,
 JHBMC developed the Central Utility Plant (CUP) in 1992 implementing new utility
 technologies. Depreciation was charged as a direct cost to the GRC at a rate of approximately

                                                        2

National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300)                   6
   Johns Hopkins Bayview Medical Center's Response to Report Number: A-03-12-03300

 $9,000 per month throughout the period under audit totaling $404,192.75. This calculation is
 based on 14.69% of the total monthly depreciation for the CUP. That percentage represents the
 weighted average use of the CUP by the GRC as calculated when the assets were placed in
 service. The monthly depreciation charge was never revised for changes to the asset base in the
 CUP, despite several, additional equipment purchases during the contract period to maintain the
 CUP's functionality and performance.

         The OIG recommended that JHBMC pay back the full $404, 193 amount charged in
 depreciation to the contract over the audited period due to lack of underlying support for the
 asset values. However, in 1994, the Department of Health and Human Services' Division of Cost
 Allocation's performed an audit on the costs charged to this contract and did not find issue
 related to the depreciation schedule for NIA. Hence, the Government was aware of and approved
 the depreciation schedule previously. To disallow the depreciation schedule now because of the
 lack of documentation of asset valuation some 20 plus years later would be unconscionable.

            3. Depreciation Costs Conformed to NIH Regulatory Requirements
         As noted above, in 1994, the Department of Health and Human Services' Division of Cost
 Allocation' s performed an audit on the contract and did not find issue related to the depreciation
 schedule for NIA. JHBMC 's understanding is that the methodology used by JHBMC conformed
 to NIH Regulations at the time as no issues were discovered related to depreciation costs charged
 to the contract. The depreciation costs have been charged in the same straight-line amount since
 1994.
         The period under the current audit by the OIG is October 1, 2008 through March 31,
 2012. Extensive review of billing allocation methodologies and line items billed took place over a
 fifteen month time period. No inconsistencies or problems with JHBMC billing practices were
 discovered during this process. One finding relating to the depreciation charged to the contract
 was issued in the audit report.

        Depreciation was charged as a direct cost to the GRC at a rate of approximately $9K per
 month throughout the period under audit totaling $404,192.75. This calculation is based on
 14.69% of the total monthly depreciation for the CUP. That percentage represents the weighted
 average use of the CUP by the GRC as calculated when the assets were placed in service. The
 monthly depreciation charge was never revised for changes to the asset base in the CUP.

         The OIG recommends that JHBMC pay back the full $404K amount charged in
 depreciation to the contract over the audited period due to lack of underlying support for the
 asset values. This recommendation was made despite the fact that the OIG auditors toured the
 CUP facility, observing the building and equipment used to provide utilities to the GRC. After
 JHBMC received the initial finding they attempted to put together additional documentation
 based on estimates located in the bond documents that were issued in 1992 . JHBMC discussed
 this approach with the OIG auditors on Tuesday June 25. They agreed to review the calculation
 of depreciation based on the bond book estimates. JHBMC received a response from the OIG
 auditors stating that the additional documentation JHBMC provided did not satisfy their
 requirements for appropriate source documentation. JHBMC has made numerous additional
 attempts to satisfy the 0 IG 's request for documentation.

                                                        3
National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300)                 7
   Johns Hopkins Bayview Medical Center's Response to Report Number: A-03-12-03300

            4. 	 Bayview Has Made Extensive Attempts to Satisfy the Auditor's Request for
                  Documentation to Support the Depreciation Costs

        In response to the OIG auditor's request for documentation, Bayview has made an
extensive search for the documents which are 20 plus years old. At the time of CUP
construction/capitalization, the accounting function was decentralized -documentation
originated at Bayview but is located in various locations. The search consisted of the following
steps:

 -Several employees examined basement file cabinets at Bayview

 -Fixed asset shared service center (now centralized) examined off-site storage boxes

 -General accounting (now centralized) examined off-site storage boxes

 -JHBMC 's federal contract liaisons examined off-site storage boxes and their records.

 -Tax department (now centralized) examined their records

 -Facilities department (now centralized) examined their records

 - Contacted treasury department and recreated an estimate based on bond document estimates
 created during the issuance of financing for the project

 -Attempted to interview any individual who was involved in the accounting for the CUP

 -Attempted to access prior information systems to locate additional online documentation

       This extensive search by JHBMC did not uncover the 20 plus year old documents that the
 OIG seeks.

            5. 	 Demanding a Refund for the CUP Depreciation Costs and Related Indirect
                 Costs Would be Unconscionable

         For nearly three decades, the JIIBMC Central Utility Plant (CUP) has provided
 invaluable services to the NIH by providing the necessary utility services for the GRC without
 which the NIH IRP could not perform its mission in support of the NIA. In 1994, the
 Department of Health and Human Services' Division of Cost Allocation's performed an audit on
 the contract and did not identify issues related to the depreciation schedule for NIA. The
 depreciation costs have been charged in the same straight-line amount in accordance with the
 schedule since that audit in 1994. The monthly depreciation charge was never revised for
 changes to the asset base in the CUP, despite additional equipment purchases during the contract
 period to maintain the CUP's functionality and performance.

        Further, the Government has accepted the depreciation costs since 1994 and has never
 questioned the costs. JHBMC reasonably relied upon the Government' s approval of the
 depreciation schedule in 1994 because the schedule was correct and conformed to NIH

                                                        4

National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300)                8
   Johns Hopkins Bayview Medical Center's Response to Report Number: A-03-12-03300

requirements. To disallow the depreciation costs at this point in time would be wholly
inconsistent with the Government's earlier approval of the depreciation schedule and would
operate to the detriment of JHBMC. A manifest injustice would be created if NIH were to
disallow the depreciation costs and related indirect costs charged to the contract that the OIG
suggests should be refunded.

         Bayview would suggest that this juncture it would be unconscionable for the Government
 to demand a refund from JHBMC and that the Government would be equitably estopped based
 on the history of dealings between NIH and JHBMC from requesting a refund for the
 depreciation and related indirect costs for the lack of a piece of paper.

              6. Conclusion

         Based on the facts discussed above, Johns Hopkins Bayview respectfully requests that the
 OIG drop in its entirety the Recommendation in the Draft Audit Report that Bayview refund NIH
 $404,193 for central utility plant depreciation costs and related indirect costs charged to the
 contract that the OIG suggests should be refunded.




                                                         5
National Institutes ofHealth Utility Contract with Bayview (A-03-12-03300)              9
